W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

21-5737

Elizabeth Maya

Deutsche Bank National Trust Company
(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Adam B. Leichtling

Date:

9/29/21

Digitally signed by Adam B. Leichtling
Date: 2021.09.29 16:43:06 -04'00'

(Type or print) Name Adam B. Leichtling
Mr.

Ms.

Mrs.

Firm

Lapin & Leichtling, LLP

Address

255 Alhambra Circle, Suite 600

City & State

Coral Gables, Florida

Phone

(305) 569-4100

Miss

Zip 33134
Email

aleichtling@ll-lawfirm.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Elizabeth Maya, 13370 S.W. 91st Terrace, Unit D, Miami, FL 33186

